-
.. 

                 ~

                 NATIONAL 

                 ARCHIVES 

                      OF FIC E of
           INSPECTOR GENERAL

         Date        August 2, 2011

         Reply to
         Attn of:    Office ofInspector General (OIG)

         SUbject :   Management Letter No. 11-18, Continued Security Concerns at AI and All

         To          David S. Ferriero, Archivist of the United States (N)

                 Management officials have failed to implement appropriate corrective action in response
         to the audit recommendations they concurred with in the Audit ofNARA's Security Guard
         Contract for AI and All (OIG No. 11-05). This failure places NARA personnel and property at
         an increased risk. This Management Letter focuses upon language contained in recommendation
         4, which states the Assistant Archivist for Administration "should conduct, or direct the
         contractor to conduct, periodic scenario exercises to test the response of security officers." In the
         five months since     ort .                 ....




                   m
         vV'lU.U.vLI.'U.                             According to the Director of Security, training was
         being conducted in response to the operational failure, but additional tests of other scenarios
         would be delayed until the security guard staff had "matured."

             Under the Department of Homeland Security's Interagency Security Committee
     guidelines, AI and All are category IV Federal facilities. Level IV facilities are categorized as
     occupying more than 150,000 sq. ft. of space, housing more than 450 federal employees, and as
     having "high volume public contact" Level IV facilities include federal courthouses with high­
     risk court chambers, judicial offices, and buildings housing highly sensitive government records.
     The only higher level, Level V, extends to mission critical national security buildings such as the
     Pentagon.

             NARA has a contract in place with American Security Programs (ASP) to provide
     security guard service at AI and All. In their October 2009 Quality Control Plan, ASP states
     "Scenario exercises will be implemented periodically2 over the duration of the contract" and
     specifically defines typical scripts that may be followed. In OIG Audit No. 11-05 we reported
     that "the COR directed the contractor not to perform these scenarios until appropriate training

     I NARA officials refer to this as two tests since both front and rear doors were tested.
     2 ASP defined in their QA Plan that scenario exercises would be conducted monthly,
.. 




       was given to the security officers." In the two years since ASP has been providing security
       guard services NARA officials could not show that any scenario exercises had been perfonned
       by ASP. In the months following the release of the subject audit report, one test of one scenario
       was perfonned and met with failure. No subsequent test was perfonned of that scenario, or any
       other potential security threat, which may exist to our facility, staff, visitors or holdings.

             In addition to ASP, NARA also has a duty to perfOlID scenario testing. N ARA' s contract
       with ASP states, with emphasis added:

                Depending upon such things as the frequency and the nature of specific facility
                security problems, a series of evaluation drills will be conducted periodically
                by the Government to assure the emergency response capability of security
                personnel. It is anticipated that drills would be conducted during nonnally
                scheduled shift hours at no additional expense to the vendor.

       Despite this contact language, NARA has failed to conduct a single security drill that would test
       the emergency response capability of the security guards in different situations. The Director of
       Security in a meeting with OIG staff, including the Inspector General, stated there is no need to
       conduct exercises as no specific threat has been identified to AI or All necessitating such action.

                The security ofNARA facilities, our staff, visitors and holdings is of paramount concern.
       Senior Security personnel that actively stand to impede contractors from conducting security
       exercises, and do not initiate and monitor controlled exercises in the wake of multiple tragic
       events directed against federal buildings in recent history, is troubling. The benign indifference
       to the threats faced by the National Archives represents an unacceptable posture, and the failure
       to implement corrective measures such as periodic scenario exercises to test the response of
       security officers is flawed and unconscionable.

               If you have any questions concerning the infonnation presented in this Management
       Letter, please contact me at (301) 837-1532.




       Paul Brachfeld
       Inspector General




       3 NARA periodically conducts fire drills and shelter-in-place drills as well as an annual exercise of the Homeland
       Security Advisory System Threat Level Orange procedures in which all persons and packages                 the building
       are subject to 100%       screelllng.




                                                                Page 2 

                                             NARA's Wf'h    ~itf'   is httn:llwwwmmul"Ov 

